          Office of Inspector General




August 18, 2006

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

JERRY D. LANE
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: Transmittal of Audit Report – Mail Transport Equipment Service Center
         Network – Highway Transportation Routes – Atlanta
         (Report Number NL-AR-06-009)

This is one in a series of reports that presents results from our self-initiated nationwide
audit of the mail transport equipment service center (MTESC) network (Project Number
06XG023NL000).

The objectives of our audit were to determine whether management implemented audit
recommendations from our report, Mail Transport Equipment Service Center Decision
Analysis Report, Performance and Financial Benefits (Report Number TR-AR-01-003,
dated May 4, 2001), and whether there were additional opportunities to save money.
The report, initiated in response to a Board of Governors request, concluded the
network would not achieve the financial benefits anticipated by the 1997 Decision
Analysis Report. We recommended, in part, that management reduce cost by analyzing
transportation requirements and other costs associated with the network.

This follow-up report focuses on whether there were opportunities for the U.S. Postal
Service to save money by reducing the number of highway round trips originating at the
Atlanta MTESC. The Atlanta MTESC provides service to mail processing facilities in
the Postal Service’s Southeast Area and Capital Metro Operations.

We concluded the Postal Service could save approximately $801,097 over the term of
existing contracts by canceling, not renewing, or modifying 90 round trips originating at
the Atlanta MTESC. The trips could be eliminated without affecting customer service by
consolidating loads to more fully utilize trailer capacity. This amount represents funds
put to better use and will be reported as such in our Semiannual Report to Congress.

Management agreed with our findings and recommendations and stated they would
implement the 90 trip changes by September 18, 2006. Management’s comments and
our evaluation of these comments are included in the report.
The U.S. Office of Inspector General (OIG) considers all the recommendations
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that they can be.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Anthony M. Pajunas
    Beverly A. Van Soest
    Paul J. McDermott
    Calvin G. Williams
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                       NL-AR-06-009
 Highway Transportation Routes – Atlanta


                                       INTRODUCTION
 Background                    The mail transport equipment service center (MTESC)
                               network is a system of 22 contractor-operated service
                               centers designed to supply mailbags, carts, hampers, and
                               other mail transport equipment (MTE) to mail processing
                               facilities nationwide. The service centers deliver equipment
                               to users with dedicated transportation.


   The MTESC network has
          dedicated
       transportation.

    Our 2001 audit report
    identified $1 billion in
        potential MTE
     transportation cost
          overruns.

   This MTE tractor-trailer
     was photographed
   in March 2006 near the
       Atlanta MTESC.




                               The U.S. Postal Service presented the original plan to
                               create the network to its Board of Governors (BOG) in the
                               Decision Analysis Report (DAR), Mail Transport Equipment
                               Service Center Network, dated May 13, 1997. The DAR
                               forecasted costs exceeding $3.6 billion over 10 years and
                               the BOG approved it in June 1997. The new network
                               became fully operational in January 2000. From the outset,
                               allegations of poor performance and excessive costs
                               troubled the new network. As a result, the BOG asked the
                               U.S. Postal Service Office of Inspector General (OIG) to
                               evaluate the program.

                               Our audit report titled Mail Transport Equipment Service
                               Center Decision Analysis Report, Performance and
                               Financial Benefits (Report Number TR-AR-01-003, dated
                               May 4, 2001) concluded the network would not achieve the
                               financial benefits anticipated by the DAR. We
                               recommended, in part, that management reduce cost by
                               analyzing transportation requirements and related costs
                               associated with the network.




                                                    1
Mail Transport Equipment Service Center Network –                        NL-AR-06-009
 Highway Transportation Routes – Atlanta


 Objectives, Scope,            This audit is a follow-up to our May 4, 2001, report. Our
 and Methodology               objectives were to determine if management implemented
                               our recommendations and whether there were additional
                               opportunities to save money. This report focuses on Atlanta
                               MTESC transportation requirements. The Atlanta MTESC
                               provides service to mail processing facilities in the Postal
                               Service’s Southeast and Capital Metro Areas. On April 1,
                               2006, Postal Service officials realigned operations. As a
                               result, contract responsibility for Atlanta MTESC routes in
                               South Carolina transferred from the Eastern Area to the
                               Capital Metro Area.

                               Using Postal Service computer-generated data, we
                               determined trip dispatch, arrival, and load efficiency and
                               identified potential trips for consolidation or elimination. We
                               did not audit or comprehensively validate the data; however,
                               we noted several control weaknesses that constrained our
                               work. For example, some computer files had missing
                               records and inaccurate trailer load volumes. Even though
                               data limitations constrained our work, we were able to
                               partially compensate by applying alternate audit procedures,
                               including source document examination, observation,
                               physical inspection, and discussion with responsible
                               officials.

                               During our work, we interviewed Postal Service
                               Headquarters officials in Network Operations Management
                               and managers and employees in the Southeast Area,
                               Capital Metro Operations, and at the Atlanta MTESC. We
                               reviewed relevant Postal Service policies, procedures, and
                               directives; observed and photographed operations; and
                               consulted with subject-matter experts. We performed our
                               work in close coordination with the Network Operations
                               Management transportation assessment team and area
                               personnel, discussed our observations and conclusions with
                               various management officials, and included their comments
                               where appropriate.

                               We conducted work associated with this report from
                               March through August 2006 in accordance with generally
                               accepted government auditing standards and included such
                               tests of internal controls as we considered necessary under
                               the circumstances.




                                                    2
Mail Transport Equipment Service Center Network –                      NL-AR-06-009
 Highway Transportation Routes – Atlanta


 Prior Audit Coverage          Since March 2005, the OIG has worked with the Postal
                               Service to reduce MTESC costs. As a result, we have
                               issued four audit reports that identified potential savings
                               exceeding $12 million. For more detailed information about
                               these audits, see Appendix A.




                                                    3
Mail Transport Equipment Service Center Network –                        NL-AR-06-009
 Highway Transportation Routes – Atlanta


                                       AUDIT RESULTS
 Highway Contract               Postal Service Headquarters implemented our
 Management                     recommendations and is aggressively pursuing
                                opportunities to reduce MTESC network costs. (See
                                Appendices B, C, and D.) Network Operations
                                Management transportation assessment teams,
                                supplemented by area personnel, are continuing to analyze
                                network transportation costs in order to reduce operating
                                expense and improve efficiency.




   The MTESC network is a
         system of 22
      contractor-operated
   service centers designed
    to supply equipment to
   mail processing facilities
          nationwide.

    Photograph of the sign
    at the Atlanta MTESC,
        March 8, 2006.




                                Although Network Operations Management officials
                                continually strive to optimize transportation with aggressive
                                cost-cutting efforts such as their MTESC network cost and
                                efficiency assessments, transportation requirements are
                                dynamic and constantly change. Based on our examination
                                of scheduled shipments and our physical examination of
                                trailer utilization, we believe additional potential for trip
                                cancellation and savings exists, without jeopardizing service
                                or operational flexibility. Specifically, we believe that the
                                Postal Service could save approximately $801,097 over the
                                term of existing Atlanta MTESC highway contract 302AK by
                                canceling, not renewing, or modifying 90 unnecessary round
                                trips.

                                Postal Service policy requires transportation managers to
                                balance service and cost. The Postal Service could
                                eliminate the 90 trips without affecting service because they
                                did not optimize some trailer loads and could consolidate
                                equipment on other trips.


                                                    4
Mail Transport Equipment Service Center Network –                              NL-AR-06-009
 Highway Transportation Routes – Atlanta



 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we had ongoing communication
                               with area officials throughout our audit and provided the
                               officials with a list of our specific trip proposals. We then




      The interior of an
     underutilized trailer
    arriving at the Atlanta
           MTESC,
        March 8, 2006.




                               discussed our proposals and area operational needs with
                               officials and made appropriate adjustments. As a result of
                               this cooperation, area officials agreed to eliminate the
                               90 trips outlined in Appendices E and F. Our trip
                               cancellation proposals are summarized below:

                                                    PROPOSED TRIP ELIMINATIONS
                                                     BY ELIMINATION CATEGORY

                                                             Number
                                    Elimination Category     of Trips   Appendix      Savings ($)

                                Postal Service identified
                                trip cancellations or
                                                               47          E             $426,210
                                modifications during the
                                audit.

                                Proposed trip
                                eliminations/substitutions
                                                               43          F               374,887
                                with which area officials
                                agreed.

                                Total                           90                       $801,097

                                                             Figure 1



                                                    5
Mail Transport Equipment Service Center Network –                        NL-AR-06-009
 Highway Transportation Routes – Atlanta




 Recommendations               We recommend the vice president, Southeast Area
                               Operations, coordinate with the manager, Capital Metro
                               Operations, to:

                                   1. Verify the actual cancellation, modification, or
                                      substitution of the 47 trips management identified
                                      during our audit.

                                   2. Verify the actual cancellation, modification, or
                                      substitution of the 43 trips with which Postal Service
                                      managers agreed and provide the date they took
                                      action.

 Management’s                  Management agreed with all our findings and
 Comments                      recommendations. They stated they would implement
                               the 47 trip changes identified in recommendation 1 and
                               the 43 trip changes identified in recommendation 2 by
                               September 18, 2006. Management’s comments, in their
                               entirety, are included in Appendix G.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. Management’s actions, taken or
 Comments                      planned, should correct the issues identified in the findings.




                                                    6
Mail Transport Equipment Service Centers Network –                                     NL-AR-06-009
 Highway Transportation Routes – Atlanta


                                          APPENDIX A. PRIOR AUDIT COVERAGE


                                                Number of                                     Additional
                                                  Trips                                         Trips
                                                Identified                                   Management
                                      Date         for                           Trips        Identified       Trips        Trips
                                      Final    Elimination    Potential         Agreed            for       Management   With Which
      Report             Report      Report         or         Savings           to by       Elimination     Agreed to   Management
      Name               Number      Issued    Modification   Identified      Management     During Audit     Assess      Disagreed

 MTESC Network –         NL-AR-05-
Equipment Processing        006      3/31/05                     $9,213,576

  MTESC Network –
Highway Transportation
       Routes
 New York, NY, Metro     NL-AR-05-
        Area                014      9/28/05         49           1,025,812       17                            32

  MTESC Network –
Highway Transportation
       Routes            NL-AR-06-
  San Francisco, CA         003      3/23/06         77           1,091,640       31              21                         25

  MTESC Network –
Highway Transportation
       Routes            NL-AR-06-
    Memphis, TN             005      3/28/06         25             699,397                                     25


       Totals                                      151        $12,030,425         48              21            57           25




                                                                   7
Mail Transport Equipment Service Centers Network –       NL-AR-06-009
 Highway Transportation Routes – Atlanta


          APPENDIX B. OVER-THE-ROAD CONTAINER POLICY LETTER




                                                     8
Mail Transport Equipment Service Centers Network –       NL-AR-06-009
 Highway Transportation Routes – Atlanta


                       APPENDIX C. REEMPHASIS OF OVER-THE-
                          ROAD CONTAINER POLICY LETTER




                                                     9
Mail Transport Equipment Service Centers Network –                                        NL-AR-06-009
 Highway Transportation Routes – Atlanta


         APPENDIX D. MEMORANDUM TO AREAS ABOUT PROPER USE,
        STORAGE, AND DISTRIBUTION OF MAIL TRANSPORT EQUIPMENT


June 11, 2002

VICE PRESIDENTS, AREA OPERATIONS
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: Mail Transport Equipment

The Postal Service created the Mail Transport Equipment Service Center (MTESC) Network to process, repair,
store, and distribute mail transport equipment (MTE) in a timely and efficient manner. Before this innovative,
equipment-management program was established, customers and employees would regularly complain about the
adequacy of the supply and the poor condition of this equipment.

Now that we have realized benefits from the establishment of this network, we must work diligently to ensure we
maximize the efficiencies and ultimately improve the bottom-line of the Postal Service.

There is a need to focus on what gets sent to the MTESCs and, in particular, when and how equipment should be
returned. There are instances when equipment is being returned by a plant followed shortly after by an order for
the same types of equipment. Shipping equipment to the MTESC should not be done solely to free up space at
the plant. Part of the planning process should include setting aside some equipment for fulfilling in-house needs
as well as customer needs.

To that end, it is imperative that postal managers at processing and distribution centers returning empty
equipment for consolidation, repair, and storage follow appropriate operating procedures. These procedures
include:

    •    ensuring that adequate stock of equipment is retained on site before dispatching any excess MTE;
    •    ensuring that trailers returning equipment to the MTESCs are fully loaded, including the cube space of
         rolling stock;
    •    ensuring that all equipment is free of trash including labels on trays, tubs, and sacks;
    •    and most importantly, ensuring that there is no mail in any piece of equipment.

By taking steps to maximize cube space in trailers, removing labels, and capturing misdirected mail, we can
contribute more to the Postal Service's Transformation strategy. If you have any questions, please contact
Regina Wesson at (202) 268-4376.


Paul Vogel
Vice President, Network Operations Management




                                                        10
Mail Transport Equipment Service Centers Network –                                        NL-AR-06-009
 Highway Transportation Routes – Atlanta




                               APPENDIX E. TRIP ANALYSIS DETAIL
       ADDITIONAL TRIPS IDENTIFIED BY U.S. POSTAL SERVICE MANAGEMENT DURING AUDIT




                                                                                                                  Proposed         Total
       Highway                                                                                                      Weekly       Projected
       Contract                                                                                                  Round Trip       Savings
        Route                             Destination Point                                Contract Term         Eliminations   on Contract
         302AK                            Carolina Mailing Service                                                    1             $37,247.58
         302AK                              G&H Mailing Service                                                       1              36,164.32
         302AK                             Direct Mailing Service                                                     2              72,661.95
         302AK                 North Metro Processing and Distribution Center                                         6              60,166.16
         302AK                             State Farm Insurance                                                       1              14,194.13
         302AK                               Compak Services                                                          5              50,138.47
         302AK                              Traveler’s Insurance                                                      5              57,553.31
         302AK                             Dove Mailing Service                                                       2              10,451.40
         302AK                             Hallowtree Warehouse                                                       15              6,567.43
         302AK               Birmingham, AL, Processing and Distribution Center                                       1              25,498.35
         302AK                            Birmingham, AL, Annex                                                       2              51,330.00
         302AK                          Atlanta, GA, Air Mail Center                                                  6               4,237.05

                   TOTAL ADDITIONAL TRIPS IDENTIFIED BY MANAGEMENT                     07/01/2005 – 06/30/2007       47         $426,210.15




                                                                                  11
Mail Transport Equipment Service Centers Network –                                         NL-AR-06-009
 Highway Transportation Routes – Atlanta



                                APPENDIX F. TRIP ANALYSIS DETAIL
               PROPOSED TRIPS U.S. POSTAL SERVICE MANAGEMENT AGREED TO ELIMINATE



                                                                                                              Proposed         Total
    Highway                                                                                                     Weekly       Projected
    Contract                                                                                                 Round Trip       Savings
     Route                             Destination Point                               Contract Term         Eliminations   on Contract
      302AK               Columbia, SC, Processing and Distribution Center                                        1             $35,331.04
      302AK                     Atlanta, GA, Bulk Mail Center Annex                                               5              35,308.78
      302AK                North Metro Processing and Distribution Center                                         17            170,470.80
      302AK                Atlanta, GA, Processing and Distribution Center                                        15              2,118.53
      302AK               Augusta, GA, Processing and Distribution Facility                                       1              26,664.93
      302AK                        Albany, GA, Customer Service                                                   1              28,164.84
      302AK              Birmingham, AL, Processing and Distribution Center                                       1              25,498.34
      302AK                           Birmingham, AL, Annex                                                       2              51,330.00

                         TOTAL AGREED TO BY MANAGEMENT                             07/01/2005 – 06/30/2007       43          $374,887.26




                                                                              12
Mail Transport Equipment Service Centers Network –        NL-AR-06-009
 Highway Transportation Routes – Atlanta


                 APPENDIX G. MANAGEMENT’S COMMENTS




                                                     13
Mail Transport Equipment Service Centers Network –        NL-AR-06-009
 Highway Transportation Routes – Atlanta




                                                     14
Mail Transport Equipment Service Centers Network –        NL-AR-06-009
 Highway Transportation Routes – Atlanta




                                                     15
